<html>
<title> - WOMEN FIGHTING FOR PEACE: LESSONS FOR TODAY'S CONFLICTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


        WOMEN FIGHTING FOR PEACE: LESSONS FOR TODAY'S CONFLICTS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2016

                               __________

                           Serial No. 114-154

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                      
                      
                      
                      U.S. GOVERNMENT PUBLISHING OFFICE
99-552PDF                  WASHINGTON : 2016                    

_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e6819689a6859395928e838a96c885898bc8">[email&#160;protected]</a>  

                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Her Excellency Monica McWilliams, professor of women's studies, 
  Transitional Justice Institute, Ulster University..............     4
Hassan Abbas, Ph.D., professor and chair, Regional and Analytical 
  Studies Department, National Defense University................    11
Ms. Jacqueline O'Neill, director, The Institute for Inclusive 
  Security.......................................................    25

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Her Excellency Monica McWilliams: Prepared statement.............     7
Hassan Abbas, Ph.D.: Prepared statement..........................    14
Ms. Jacqueline O'Neill: Prepared statement.......................    27

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Material submitted for the record.....................    55
The Honorable Brad Sherman, a Representative in Congress from the 
  State of California: Material submitted for the record for the 
  Honorable Eliot L. Engel, a Representative in Congress from the 
  State of New York..............................................    59

 
        WOMEN FIGHTING FOR PEACE: LESSONS FOR TODAY'S CONFLICTS

                              ----------                              


                        TUESDAY, MARCH 22, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:52 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. Our 
thoughts and prayers are with those in Brussels in the 
aftermath of this morning's attack.
    Let me share with you that in terms of this hearing today, 
this is the third in our series of hearings to examine 
challenges facing women worldwide.
    This hearing will examine the effect of women's 
participation on peace negotiations and other efforts to reduce 
violence and to reduce the extremism. Unfortunately, we learned 
just this morning that Betty Bigombe will not be able to join 
us due to her employer's policy on congressional testimony. We 
are disappointed by this development, but nevertheless honored 
to be joined today by an excellent panel, including Monica 
McWilliams. Ms. McWilliams risked much to end conflict in 
Northern Ireland, blazing a trail for women peacemakers to 
come.
    This is a critically important discussion. From Syria to 
Afghanistan to Sudan, armed conflicts are becoming increasingly 
deadly and disruptive. Efforts to negotiate their end are more 
important than ever.
    And simply put, when women are at the negotiating table, 
success is more likely. Research shows that a peace agreement 
is more likely to be reached, and is 35 percent more likely to 
last at least 15 years when women are involved.
    When you consider that historically, over half of all peace 
agreements fail within the first 5 years--women's involvement 
becomes imperative. Think about the lives saved. Think about 
the economies maintained by a 35 percent decrease in repeated 
conflicts.
    Moreover, the way in which peace agreements are negotiated 
is changing. Instead of a traditional ceasefire and division of 
territory, talks now lay the groundwork for future governance 
structures and social institutions.
    Not surprisingly, when women are excluded from these 
essential discussions, their rights and their interests are 
overlooked--and are often undermined. Out of nearly 600 peace 
agreements signed between 1990 and 2009, only 1 percent 
referenced violence against women.
    This has major implications, not just for a country's women 
and girls, but also for its broader governance and stability. 
In societies where violence against women goes unpunished, we 
see more violence, crime, and conflict on the whole. Men who 
abuse women to get what they want tend to take the same 
violent, uncompromising approach toward others too. What 
follows is a lack of law and order--an absence of stability.
    Nations also benefit from women's participation in law 
enforcement, in security institutions, realizing better crime 
reporting and higher levels of trust within the communities 
they serve.
    And women are essential to confronting one of the greatest 
national security threats of our time, the spread of what the 
9/11 Commission called violent Islamic extremism. Extremist 
groups are obsessed with suppressing and controlling women. No 
one understands this better than women themselves.
    Yes, some women embrace extremist ideologies, but the vast 
majority vehemently oppose such severe limitations on their 
education, on their work, on their movement, and on their 
public life. Yet in places where we are most concerned about 
the spread of extremism--such as Pakistan--women are largely 
absent from the tables of power. This seriously limits access 
to, and information from, what is arguably the most motivated 
half of the population: A nation's women. They are a huge 
bulwark against extremism if they are empowered.
    U.S. foreign policy has recognized the benefits of women's 
inclusion in working toward sustainable peace. While Iraq and 
Afghanistan have been challenging, our efforts to push for 
women's participation have been helpful, and current work by 
the State Department and USAID to train and assist women's 
groups should be supported.
    Of course, the struggle for women's participation is 
certainly not just a foreign concept, and we as a nation are 
still making progress. One of the important things that men can 
do is stand with and be deserving partners of women in their 
fight for representation and equality around the globe.
    And of course listen. Women on my staff made the point that 
we need to do a better job of recruiting female experts for our 
hearing panels. And I look forward to the day when we have more 
women serving on this committee, Ambassador Wagner.
    Because as I hope today's hearings will demonstrate, the 
benefits of women's participation and the risks of their 
exclusion in all aspects of governance and peacemaking are too 
great to ignore.
    Let me turn if I could to our ranking member, Mr. Sherman 
from Los Angeles, for his opening statement.
    Mr. Sherman. Thank you, Mr. Chairman, for holding this 
important hearing. And as you point out, one in a series of 
three hearings focusing on women and foreign affairs, our 
others being on women living under ISIS, and women in 
technology. In general, in 20 years on this committee I have 
learned that when a country educates its women, when a country 
allows women to participate in all aspects of the society and 
economy, that country grows both economically, socially, and in 
its ability to maintain communal peace.
    I want to join you in condemning the terrorist attacks in 
Brussels and expressing the sympathy of all of us for the 
victims and for their family members. I look forward to 
learning why the World Bank will not allow its officials to 
testify before us, and without objection, I would like to enter 
Jan Schakowsky's statement into the record, a fine Member of 
Congress who does not serve on our committee.
    Chairman Royce. So ordered.
    Mr. Sherman. Before I touch on the importance of women in 
the peace process, I want to point out the United States has 
made, under President Obama, progress in opening the door to 
involving women in our national security process. We have of 
course a woman as national security advisor, we have had women 
as secretary of state, and now just last week, President Obama 
named General Lori Robinson to head the U.S. Northern Command, 
making her our nation's first combatant commander.
    It is not only important though that we ensure that women 
are included not just in the military and national security, 
but in the peace process and in society at large. In 
negotiations it is important to involve people who have a stake 
in those negotiations and women make up over 50 percent of the 
world of course. Research indicates that when you include women 
in negotiations their inclusion helps produce a more durable 
peace, according to CRS.
    One comprehensive review of over 80 peace agreements found 
that formal or informal inclusion of noncombatant civil society 
actors in peace negotiations decreased the odds of return to 
conflict by 64 percent. Conflict disproportionately affects 
women and children. We have all seen the pictures, conflict 
after conflict, of noncombatants and injuries they have 
suffered. For this reason it is essential that women be equal 
partners in the conflict prevention, in conflict resolution 
process. The review of the research provides abundant evidence 
that inclusion of women is vital when it comes to preventing 
and resolving conflicts.
    For example, women and--well, this of course comes from our 
witnesses' statements, but I think these few sentences deserve 
being heard in this room twice. Women are also the first to 
resist violent fundamentalism which restricts their rights and 
leads to increases in domestic violence before the conflict 
ensues. I think the chairman has spoke eloquently of this 
factor.
    Increasing the number of female officers improves responses 
to domestic and sexual violence as victims are more likely to 
report gender based violence to female officers. And finally, 
in negotiations, belligerents often perceive women as honest 
brokers. Women can bridge divides and reach out to communities 
where men might find it more difficult.
    The chairman pointed to Pakistan as one example of a place 
where we should work for women's inclusion. I will point out 
that Pakistan has had a woman as head of state, and I know that 
everyone in this room looks forward anxiously to the day when 
we have a woman President. I yield back.
    Chairman Royce. This morning we are pleased to be joined by 
distinguished panel. Her Excellency Monica McWilliams, Ms. 
McWilliams is a professor in the Transitional Justice Institute 
at Ulster University in Northern Ireland. During the Northern 
Ireland peace process, Ms. McWilliams held a variety of 
leadership positions, including being elected to serve in the 
Northern Ireland Legislative Assembly. Ms. McWilliams received 
the John F. Kennedy leadership and courage award for her role 
in the peace negotiations in Northern Ireland.
    Dr. Abbas is a professor of International Security Studies, 
and he is chair of the Department of Regional and Analytical 
Studies at the National Defense University. Prior to this 
position, Dr. Abbas held positions at Harvard University and 
Columbia University, among others.
    Ms. Jacqueline O'Neill is the director of the Institute for 
Inclusive Security, a DC-based organization that promotes the 
inclusion of women in peace and security. Ms. O'Neill oversees 
all the Institute's initiatives in Afghanistan, Burma, 
Pakistan, Sudan, and Syria, while also training and advising 
military and police serving in NATO and serving in the U.N. and 
the U.S. military, among others.
    And without objection, the witnesses' full prepared 
statements will be made part of the record, and members here 
will have 5 calendar days to submit any statements or any 
questions that you have for the witnesses or any extraneous 
material for the record.
    So Ms. McWilliams, if you would please summarize your 
remarks. Thank you.

  STATEMENT OF HER EXCELLENCY MONICA MCWILLIAMS, PROFESSOR OF 
    WOMEN'S STUDIES, TRANSITIONAL JUSTICE INSTITUTE, ULSTER 
                           UNIVERSITY

    Ms. McWilliams. Good morning and thank you, Chairman Royce, 
Ranking Member Engel, Congressmen Sherman, and members of the 
committee. On behalf of the panel, I too would like to express 
my sympathy to the injured and my condolences to the families 
of the bereaved in Brussels where my own husband is currently 
working and living.
    My testimony today is informed by my experience as a 
negotiator and a signatory to the 1998 Belfast Good Friday 
Agreement. I am currently tasked by the Northern Ireland 
Government to develop a strategy for the disbandment of all 
paramilitary groups. I am the first woman to be appointed to 
such a high level monitoring panel in the post-conflict phase.
    Northern Ireland's experience exemplifies the importance of 
having women involved at all stages of the peace process. At 
the commencement of our own peace talks, we women in civil 
society were very concerned by the scant attention that would 
be paid to the role that we had played during the previous 25 
years of the conflict. Women in Northern Ireland, like women 
everywhere, had been credited with holding the line between the 
different factions and had created hundreds of active local 
groups which every day crossed the political/sectarian divide.
    But following the ceasefires in the mid-'90s, we became 
aware that the government parties, ex-combatants, and 
constitutional parties were being invited to participate in the 
formal peace talks. Women would be largely excluded because 
they had been previously underrepresented in these parties.
    And realizing that the process was in danger of excluding 
us, we in civic society came together and decided to form a 
women's coalition that included women from Catholic and 
Protestant backgrounds, from Unionist and Nationalist 
backgrounds. In order to enter the peace talks, all groups had 
to form themselves into official political parties. The Women's 
Coalition had 6 weeks to do so, and we became an official 
elected party.
    We went around the country convincing the electorate that 
women deserved to have a seat, and we earned enough votes to 
become one of the ten parties. And on the day that I entered 
the room, I looked around and realized that we were the only 
women delegates present. And at that time, we joined 3 percent 
of women across the world that became signatories of a peace 
agreement. Because we challenged the process at the pre-
negotiation stage, the peace talks opened up to allow us as 
outsiders to become official insiders.
    And that is the first lesson that we learned. Peace 
negotiations need to be designed to create an effective, 
inclusive process so that women's voices from civil society 
have an opportunity to be heard. Recently I have been involved 
in workshops from Syria who are participating currently in the 
talks in Geneva. After tremendous advocacy led by women in 
Syria in civil society, and by the commitment of the U.N. 
Special Envoy Staffan de Mistura, these talks have been opened 
up which is a sign of progress.
    The precedent has now been set at the Syrian talks for a 
civil society forum and a women's advisory board to be present 
throughout these talks. They will sit in a parallel forum to 
the main delegations of which there are several women from each 
side, and they will act as advisors throughout the process in 
Geneva. Drawing on my own experience with the Women's Coalition 
in Northern Ireland, I now prepare these Syrian women for the 
pushback that often accompanies women when they do come 
forward.
    In Northern Ireland, for instance, we had prepared 
ourselves for the various negotiation positions, but we were 
not prepared for the open hostility that we experienced from 
the other parties at the table which veered at times from 
downright misogyny to sectarianism. We attracted a great deal 
of media attention as a result, and slowly, slowly, the bad 
behavior and the male posturing began to change.
    So finding ways to create an inclusive process is key. We 
knew that once the ex-combatants agreed to abide by the 
principles of nonviolence for the talks, they too would be part 
of a different future. The Women's Coalition established back-
channels, we found ways to measure those who remain nervous 
about the process, and we kept the process moving. When 
violence is the norm, peace is the mystery, and the progress of 
the talks at times depended very much on our back-channeling.
    The second issue is the substance, what you can put on the 
table. Had women been absent, issues relating to victims, 
children, young people, mixed housing, integrated education, 
community development, and the civic forum would all have not 
made their way into the final agreement. And these issues are 
issues for sustainable peace. There is also gender-specific 
issues because conflict does have a differential impact on men 
and women's lives, and those issues need to be put on the 
table.
    The final and third issue is how to implement and enforce 
what has been promised. Too often, what is agreed at the table 
is not delivered. For example, in Northern Ireland we had a 
quota of 50 percent for Catholics to be recruited to the new 
police service. That quota did not exist for gender because it 
was argued that it was going to be discriminatory.
    So the lesson that was learned was that aspirational 
proposals need to become institutional guarantees. They need to 
be accompanied by benchmarks and timetables. And when there is 
an absence of a critical mass of women in the legislature and 
in the bureaucracy, we need to have champions.
    So here I want to commend the role of the U.S. Government 
at that time and right up to the present, which has ensured us 
that those champions have been available from both the 
Democrats and Republicans. Female U.S. Consul staff, high-
ranking U.S. women, became involved in our peace process and 
they acted as role models in what was and still is a 
predominantly male culture. And they showed us that vital 
voices of women's voices are crucial to all peace processes.
    Precarious progress has now been made and we move forward 
to a situation where gender perspectives have to be taken 
seriously and where policymakers see the inclusion of women as 
beneficial to the reforms that come with peace. Peace 
agreements are important because they address the past and they 
articulate the priorities for the future. Women need to be a 
central part of that and when they are mountains will move. My 
written testimony today includes several policy recommendations 
which I am happy to answer questions on. Thank you.
    [The prepared statement of Ms. McWilliams follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                               ----------                              


STATEMENT OF HASSAN ABBAS, PH.D., PROFESSOR AND CHAIR, REGIONAL 
 AND ANALYTICAL STUDIES DEPARTMENT, NATIONAL DEFENSE UNIVERSITY

    Mr. Abbas. Chairman Royce, Ranking Member Engel, 
Congressman Sherman, and other respected members of this 
committee, it is a great privilege and honor to be here and to 
testify and to contribute to this process.
    Up front I would argue and give my principle belief on the 
subject of why, very similar to the comments by my colleague, 
why more women in law enforcement and the broader criminal 
justice system play a key role. It is often interpreted as an 
issue of inclusivity, about gender balance or gender equality. 
It is not merely that. It is much more powerful.
    It is, in my view as an academic and as a former police 
official in Pakistan with my 15 years of academic work in the 
United States and my free studies mostly in Afghanistan, 
Pakistan, Iraq: What I have learned is that it is an absolute 
necessity as a core element of the broader criminal justice 
system in policing to have more women, because it is directly 
linked to effective policing. More women are needed not because 
of inclusivity, they are needed because that is directly linked 
to effective and good policing.
    Now what is the evidence I have to suggest that? Because it 
sounds very good, and at times politically correct in certain 
context, in the West especially. I have two sets of evidence. 
One is very brief profiles that I will share with you of five 
women whose work at one level inspired me, but with whom I have 
worked firsthand. I saw their enthusiasm, I saw their clarity 
of mind, I saw their empathy, and I saw their contributions as 
security professionals both in terms of scholars and experts, 
and as police officers. And then I have a few items based on 
pure empirical academic research. The five profiles: And I am a 
proud American, but I am also, I love Pakistan. I have worked 
with, as a Pakistani, worked with Benazir Bhutto, the deceased 
Prime Minister. I just have two or three things. The first 
woman ever to become head of Muslims, any Muslim State. The 
clerics in Pakistan, the religious extremists had issued a 
fatwa, an edict saying a woman cannot be head of the State. The 
people of Pakistan voted against that and elected her.
    Then she was just cornered by the Pakistani military 
establishment, who thought she is a security threat. That was 
the headline, that she is a security threat. She cannot even go 
close to the nuclear installations. What she did in her first 6 
months, she invited the Indian Prime Minister Rajiv Gandhi; and 
signed, negotiated a deal saying both countries will commit not 
to attack each other's nuclear installations--a huge deal.
    Finally, I will jump to her final days. And I remember I 
met her here. When she went back, and I am personal witness to 
this, she was very clear that she was walking into a death 
knell. She thought she would stand up to extremists, and she 
lost her life. She gave her life. The message, from my point of 
view, is that she showed, more than any man in South Asia or 
the Middle East, she showed that standing up to extremism 
matters.
    My second example, my mentor Jessica Stern, who I remember 
sitting in her class, actually, on the eve of 9/11. Those were 
my first few days in the U.S. She was the professor of security 
studies and terrorism. And what I have seen in her work, she 
went to Pakistan among other countries, interviewed religious 
extremists. The head of Lashkar-e-Taiba at that time, Hafiz 
Saeed, she mentions his story in her book, ``Why Religious 
Militants Kill.'' By her work she created a new precedent as a 
security expert, scholar, and that contributed significantly 
for both men and women.
    My third example is a Pakistani police officer, Maria 
Taimur, who opted--she was a police officer in Pakistan--she 
opted not to go for a desk job; she will go and take up a job 
as an operational commander.
    My fourth example, a very important one, I am proud to 
mention one of my students, a U.S. Army colonel, Colonel Martha 
Foss. She served as an advisor and as a trainer for Afghan 
women judges. I asked her 2 or 3 years ago in my class amongst 
many students, what are your hopes and expectations when, as a 
U.S. ``AFPAK Hand'' at my College of International Security 
Affairs, when you go back after the master's degree, what are 
your hopes and expectations? She said something which is still 
entrenched in my mind. She said, sir, I am going back because I 
saw hope in the eyes of the women judges that I trained. I am 
going back for them.
    My final example, Jane Townsley, a British police officer 
who as president of the International Association of Women 
Police created new partnerships, empowered women to come 
together from all over the world, and created new precedents.
    So these five stories I will share because, one, I knew all 
of these five and worked with them, greatly learned from them 
and then, now, secondly, builds to my just five sentences on 
what the empirical studies tell me. These may be my personal 
ideas.
    Five things empirical studies tell us: Number one, whenever 
there are more women in police they de-escalate violent 
situations. Whenever there are more women in police, and these 
are experiences from actual studies from the United States, 
that there are less complaints. When there are more women, 
there are less complaints about excessive use of force by 
police. Then, crime: This is from European Union countries, 
whenever there are more women in police, there are increased 
cases of crime reporting, especially about women.
    Last but not least, CVE, countering violent extremism and 
counterterrorism. And if I may quote from one of the major 
studies, it says clearly that wherever there are more women, 
the designing and the mechanisms by which we approach 
extremism, these designs and mechanisms improve.
    So I will conclude with this. Thank you for--I am a little 
over time, but my final sentence is, what can we do based on 
these two sets of things? I would say, number one, first and 
foremost, we should think about involving more women in 
advisory positions. Whenever we have these missions across in 
fundings, there have to be more women involved. Secondly, there 
has to be more funding to look at how the academic and the 
policy worlds, investment in them to see how more women in 
police has a direct impact on better policing. And last but not 
the least, better recognition of the works done by female 
leaders such as Benazir, such as the President of Kosovo who 
was a police officer, and like my colleague here, who have done 
tremendous things for the rule of law, for empowering women, 
but most importantly for justice. Thank you.
    [The prepared statement of Mr. Abbas follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                              ----------                              

    Chairman Royce. Ms. O'Neill, if you would hit that red 
button. Thank you.

 STATEMENT OF MS. JACQUELINE O'NEILL, DIRECTOR, THE INSTITUTE 
                     FOR INCLUSIVE SECURITY

    Ms. O'Neill. Chairman Royce, you have put a crucial topic 
squarely on the agenda of one of the prominent committees in 
Congress. Thanks to you, Ranking Member Engel, Mr. Sherman, and 
all members. For more than 15 years at the Institute for 
Inclusive Security, led by Ambassador Swanee Hunt, and 
thousands of members of our global Women Waging Peace Network, 
we have increased the inclusion of women in peace and security 
processes.
    We know very well that today's hearing topic has always 
been rich with anecdotes. We hear about centuries-long 
traditions of women mediating between warring clans in 
Afghanistan and Somalia. We listen to pioneers like Monica, and 
Betty Bigombe from Uganda, whose testimony is available online 
and who literally walked into the jungle amidst a brutal civil 
war to sit down face to face with Joseph Kony and convinced the 
LRA to sit down around the table with the Ugandan Government 
for the first time ever.
    Just a few months ago, we even heard a story from Afghan 
women describing watching the very subtle recruitment of young 
men into violent extremist groups at weddings. When they went 
to report this to a government minister, he laughed at them 
condescendingly and said, the militants we deal with are far 
too sophisticated to recruit at weddings. A month later, those 
same young men killed 32 men and women on a bus. There are 
thousands of stories just like these. Yet, for decades as we 
have asserted that women play vital roles in ending war and 
building peace, we have been told, prove it. Now we can. There 
is a robust body of data to make the case.
    So let's review three things we know. One, we know that 
woman get warring parties to the negotiations and they help 
them reach agreements that endure. A new study looked at 40 
peace processes in 35 countries and found that when women's 
groups had influence, an agreement was reached 98 percent of 
the time. Another study showed that a peace agreement is 35 
percent more likely to last at least 15 years if women 
participate in its creation. Why is that?
    Studies document that women expand the conversation beyond 
where borders are drawn or who gets to control which ministry. 
They introduce priorities that lay a foundation for a stronger 
state, like abuses of police power or political exclusion.
    Two, we know that the ways that war is waged and peace is 
built are changing fast and that women are addressing 
challenges posed by non-state actors like terrorist groups. 
They are mediating conflicts at local levels, for example. It 
may sound hard to believe, but women in ISIS-controlled areas 
in Syria have been negotiating to reopen schools and keep them 
running. Women are also on the front lines of violent 
extremism, not only as mothers as we so often hear, but also as 
fighters, as community leaders, and as members of security 
forces.
    Three, we know that engaging women in decision making is 
not something that we do for women. We do it for all of us. 
States that respect and engage women are less likely to traffic 
in drugs, weapons, and people, to create or harbor terrorists, 
to enable criminal networks, to generate refugees. Ultimately, 
they are also less likely to need U.S. boots on the ground.
    It is clear that women's inclusion is both a rights agenda 
and a national security imperative. In short, it is about 
making the money we spend abroad more effective and ultimately 
needing to spend less of it. Yet, perplexingly, despite knowing 
all of this, the practice of meaningfully including women is 
wildly inconsistent.
    So what can Congress do? My written testimony proposes five 
actions, but I will highlight just a few. First, pass the 
bipartisan Women, Peace, and Security Act to codify the U.S. 
National Action Plan on Women, Peace, and Security. The plan is 
a strategy to integrate women's inclusion in all aspects of 
defense, diplomacy, and development. More work remains, but it 
has prompted meaningful change. Codifying the plan into law 
will help ensure that women's inclusion is a focus no matter 
who sits in the White House. It will enable Congress to 
exercise its oversight role and send a clear signal that this 
is a foreign policy priority.
    Second, Congress can make small investments that pay big 
dividends. For example, last year for the first time, Congress 
ensured dedicated funding for the recruitment, retention, and 
professionalization of women in the Pakistani police force. 
Women constitute about 1 percent of those police forces and 
their absence has a tremendous negative impact on the ability 
to stabilize communities and counter violent extremism.
    This year we hope Congress will maintain its support and 
dedicate at least $5 million more for these efforts as was 
specified in the Senate spending bill last year. To put this in 
perspective, this is a tiny, minuscule fraction of overall U.S. 
spending on terrorism, with significant and disproportionate 
results.
    Third, ask targeted questions at every hearing, 
particularly of nominees. Imagine if a potential appointee was 
asked how the principles of the U.S. National Action Plan are 
reflected in his or her priorities. Even the fear of simply 
being caught without an answer would prompt meaningful 
reflection.
    And fourth, as the chairman and his staff apparently 
referred to earlier, when holding hearings related to 
international crises, peace, stability, and security 
assistance, be sure to invite a significant number of female 
experts. Brookings did a study last year looking at the 45 
congressional hearings on the Iran deal over 1 year. Out of 140 
named witnesses, only six were female. And as one creative 
pundit pointed out, that demographic breakdown is strikingly 
similar to that of Iran's own Parliament.
    The evidence could not be clearer. When women are included 
societies are more stable. We can't afford for this to be an 
afterthought. As a member of our network from Afghanistan 
recently said, the world talks about including women; the 
extremists are already doing it. By convening this hearing, 
Congress sent a powerful signal of bipartisan support to the 
millions of the women around the world who are seeking a voice 
and a role. The legislative action that I hope will follow 
would be a meaningful declaration that their work is valued and 
that the U.S. Congress stands behind them. Thank you.
    [The prepared statement of Ms. O'Neill follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Chairman Royce. Thank you, Ms. O'Neill. The first question 
I would ask, in our first hearing in this series we learned 
about ISIS' horrific use of sexual violence to devastate 
families, to devastate communities, but the Assad regime's, the 
prisons, are notorious also for the unbelievable level of rape 
and torture. We had Caesar, the military photographer who 
documented some of this, testify here. So you have thousands 
and thousands of Syrian women who have been imprisoned in those 
jails, in Assad's jails, many simply for organizing aid 
deliveries or rescue operations that defied Assad's blockades.
    So Ms. McWilliams, you have been helping to train Syrian 
women who are now participating in this latest round of the 
U.N. brokered talks. In a traditional society like Syria where 
even the suspicion of rape can break families apart, can you 
speak a little about the importance of women's inclusion to 
address the long term effects of widespread sexual violence in 
conflict?
    Ms. McWilliams. Thank you very much, Chairman. And let me 
give you a picture of what it was like last month when I was 
with the women and word came from Riyadh that there may be some 
detainees going to be released as a confidence building measure 
in order to get the talks started.
    And so we asked the women to sit down and consider which 
women would be on a list if they were to be released, and 
therein lay the first problem. There was a documented list and 
a non-documented list. And the women started to argue about 
whether they could switch some of the women who were 
undocumented because their parents had come to the women and 
said to them, we do not want anyone to know that our daughters 
are inside Assad's prisons because when they get out this will 
be an issue of their honor.
    And so the women had to carefully negotiate that night 
which women would go on the list and be sent back as a 
confidence building measure before the talks would start that a 
number of them would be released, both women and children. And 
that for me coming from a different culture was a real lesson.
    And so the issue of sexual violence is horrendous. There 
were women in the room who had experienced sexual assaults and 
who had been raped in all male prisons, and who couldn't speak. 
And they also said other women and got up and expressed their 
solidarity toward them and apologized to them and said, we are 
so sorry that you were left alone, but again we and the 
community were told not to single you out in case this word 
came out that you were there.
    So you can see the difficulties, Chairman. And this is what 
I meant when I was giving my testimony about the differential 
impact of conflict on men and women's lives.
    The other issues that we are facing are in the refugee 
camps. The women were telling us that in some of these camps 
ISIS were trying to take the camps over. They were incredibly 
courageous, incredibly resilient, and they were refusing to let 
that happen. There were some concerns about the Sharia courts 
being used to make judgments on very young girls who they knew 
to be raped and so that was also an issue.
    But what they are doing, and I think it is incredibly 
important, and what we did too, was they are documenting all of 
this so that these human rights violations will be on the 
record. There should be no impunity for such incredible sexual 
violations and they are making sure that one day if 
transitional justice comes about that these issues will get the 
priority, which in the past, as you know in the Second World 
War they did not.
    Chairman Royce. Yes. Ms. O'Neill, although Ms. Bigombe was 
not able to join us today, I know you are familiar with her 
very successful work with Ugandan women to encourage a large 
number of defections from the Lord's Resistance Army where 
Joseph Kony had captured children, the girls were concubines, 
the boys were child soldiers for him and his lieutenants.
    I find this kind of community outreach very compelling and 
potentially very relevant to other conflicts in which it is 
very clear that we need to be smarter about countering this 
kind of extremist recruitment, for example, al Qaeda or ISIS in 
particular, or Daesh. Can you speak a little more about what 
these kinds of initiatives mean in terms of the untapped 
potential for women in many places where we are trying to 
counteract this terrorist recruitment that is underway?
    And I would afterwards ask Mr. Abbas for any insights, any 
comments he might have as well.
    Ms. O'Neill. Thank you, Mr. Chair. You referenced Betty 
Bigombe's work. Briefly to describe, for example, one of the 
things that she did, she organized groups of women to write 
letters to LRA combatants, to LRA soldiers, explaining what 
would happen to them, what services would be available to them, 
what programs they could access were they to voluntarily 
demobilize, come out of the bush and rejoin their communities. 
They handwrote these letters and they had their female members, 
wives, friends deliver them directly.
    So Betty organized a group of other women to do this. They 
did so in a way that appeared non-threatening, non-political, 
no one assumed that they were doing anything scary because they 
were a group of women organizing. They created these letters, 
delivered them, and as a result, 2,000 members of the LRA 
voluntarily demobilized. Can you imagine the cost savings and 
the savings in human lives from that not being a military 
action or a forced demobilization? And that is exactly the type 
of creative solution that women around the world are using.
    Women that we speak with and work with around the world 
talk about the importance of having women in all aspects of 
decision making regarding government and other programs aimed 
at countering violent extremism so that women are not viewed 
solely as victims who need protection or the provision of 
services from the state, but who are also providers of services 
and who have agency in their own, noting to us that one of the 
ways that some women are actually attracted to these violent 
extremist movements by false promises of agency, of being a 
lioness in some senses, of being targeted for the opportunity 
to make a change or a difference, and so the importance of 
providing an alternative narrative for hope for a role in 
determining their country's future, et cetera.
    And the more women you have engaged in the upstream program 
design and upstream thinking, including in security forces, the 
more women you will have are going to be affected and actually, 
authentically, reached by these outreach efforts. Thank you.
    Chairman Royce. Thank you. Mr. Abbas.
    Mr. Abbas. Sir, as reference to both the points, I would 
substantiate that with some examples, especially from the case 
of Pakistan and also from Iraq. But in the case of Pakistan, 
for instance, we know that when in one case Swat, Swat where 
the militants had taken what, around 2009, if you remember, we 
knew that they were about 100 miles, one hard drive from 
Islamabad.
    And that whole episode of the rise of extremism and 
militancy was studied, and we came to know that some of the 
militants in that area, Fazlullah, who is now head of the 
Tehrik-I-Taliban Pakistan, or Pakistani Taliban, he was 
specifically targeting women because he was using his radio 
transmissions during the daytime when he knew full well that 
men are mostly out in the farms or in the field and that he 
would inspire somehow women who were at home who were listening 
to the radio. It took, I mean, the research came out 3 years 
later because no one was--and there was a group of women who 
were actually involved in finding that out.
    So that substantiates the point that even when it, in these 
cases where extremists and terrorists and radicals try to use 
all channels available, somehow in the case of South Asia, if 
it is women whether they were human rights activists or whether 
they were from the law enforcement or security agencies--
security agencies when I am saying, I am thinking again because 
there are so few, but those who are in the civil society.
    Civil society in Pakistan and Iraq has played an important 
role also. An example, recently we had a young woman from Iraq, 
actually, who came to the College of International Security 
Affairs at NDU and spoke about how her father was a Shia and 
mother was a Sunni, and how she was working in Iraq now to 
bring both the sectarian groups together.
    So there is a lot of evidence. It is an issue of empowering 
them. And if I make this quote in brief, one of my colleagues, 
a British police officer who I have quoted in statement in 
length, she had said we often forget that we talk about 
equipping them and we talk about empowering them, but it is 
also about at the end of the day enabling them. And that 
enabling role is mostly in the hands of men, whether it is 
about toward the extremism or the other side. So we have to 
focus on the enabling part. Thank you.
    Chairman Royce. Well, and girls like Malala. Thank you, Dr. 
Abbas. We go now to Mr. Sherman, the ranking member.
    Mr. Sherman. Thank you. Ms. O'Neill, what role have women 
played in the current Colombia negotiations and what difference 
does it make?
    Ms. O'Neill. Thank you. So women have played roles on all 
sides of the conflict in Colombia for decades. One of the least 
known aspects of the current round of negotiations is that 
women were very instrumental in getting the parties to the 
talks. So in the pre-talks phases we pay a lot of attention to 
the talks that are largely deemed right now as successful, we 
hope there will be a ceasefire announced soon, women, to use an 
unfortunate metaphor, set the table, for those talks to get 
parties there and have kept them there for some time. So women 
have been members of both negotiating delegations, as well as 
women in civil society have played a broad range of very 
important roles surrounding the talks.
    So, women in civil society advocated for those present at 
the talks, all of the negotiators, to hear directly from 
victims of the conflict. And to our knowledge this is the first 
time that any round of negotiations has heard testimony where 
both sides of the talks heard directly from those most affected 
by the war about their experiences and about their hopes. It 
was women in civil society who are instrumental in providing 
and ensuring the voices of victims were directly spoken and 
heard by the negotiators.
    They also formed what is called the Gender Subcommission, 
again the first commission of its type at any negotiation to 
take all of the topics on the table and address and examine 
whether or not there is a different impact for men and women. 
And that is important for all of the reasons that Betty and 
Hassan mentioned, and also for an additional reason which is 
that the FARC in Colombia is composed of about 40 percent 
women.
    So the Colombian military, for example, has about 1 
percent, the FARC has about 40 percent women. So when we are 
talking about the next stage of demobilizing paramilitaries and 
bringing them back into communities, typical programs of 
reintegration we see time and again around the world discount 
the fact that there are women present and they do things like 
train them to be hairdressers or seamstresses. And we are 
talking about women that have commanded platoons and 
battalions, fought in the jungle and carried weapons.
    And so women around those tables, women designing those 
programs directly are going to know exactly what it is going to 
take to get women out of the FARC and back into communities in 
a meaningful way. So in conclusion, their response and their 
impact has been substantial.
    Mr. Sherman. Thank you. Dr. Abbas, I have been trying to 
understand Pakistan for 20 years. You describe a Pakistan that 
one time elected Benazir Bhutto and ignored or discounted the 
fatwa against her gender, and of course there are a lot of 
people who voted against her for reasons that had nothing to do 
with her gender.
    Now I see a Pakistan in which girls are attacked for going 
to school, those who try to punish their attackers are 
attacked, and those who attack are glorified. Has Pakistan 
changed or have these very different views on the role of women 
been there and had substantial support for decades?
    Mr. Abbas. Thank you very much for that question. I will be 
candid. I saw Pakistan drifting toward extremism in a very step 
by step fashion, from the Afghan jihad years onwards, and I 
will not go into that history. You know that better than me.
    But that changed Pakistani dynamics. When militants from 
30, actually 40 different countries, exactly the way it is 
happening with ISIS today, when those militants from all across 
the world came in, Pakistan housed them. And thinking they 
would use them in the Afghan jihad, when the U.S. was on board, 
Saudi Arabia was funding, everyone, and but they forgot the 
Pakistani security establishment, especially that those people 
who were performing those roles had an internal agenda as well, 
which was a radical, extremist, non-democratic, non-pluralist 
Pakistan. And those forces, who for instance all the religious 
parties together could never win more than 8 or 9 percent of 
the vote ever, but then there was one stage on which they 
became very powerful.
    I would argue one of the reasons why that happened, and 
this is honestly and frankly not very much discussed in, I 
would say, U.S. policy circles, the idea of authoritarianism 
and military dictatorships, which, if I may take liberty, 
Musharraf, General Musharraf, I worked with him, great man. His 
heart was in the right place. But the damage that his 
authoritarianism did to Pakistan was also irreparable.
    So it is Pakistan's involvement in conflicts, Pakistan's 
entrenched rivalry with India, in which they think anyone who 
is fighting in India is doing a freedom fight. And how all 
those people have radicalized Pakistan. And then, last but not 
least, these authoritarianism issues and no investment in 
education. And when I say ``no,'' it is less than 1 percent 
investment.
    So with all the carryover bill, and carryover Burman bill 
contributions, which I think was one of the best things we did, 
the trend toward extremism in Pakistan has been growing faster 
than what we were from outside investing or what the Pakistani 
progressive elements were doing. The progressive elements were 
sidelined because Pakistan was derailed from democracy. I think 
these are the three very critical factors. With the 
continuation of democracy, people like Benazir will become 
powerful.
    Mr. Sherman. I will try to sneak in one more question. We 
have Voice of America, we have Public Diplomacy, is there 
anything we should do to more effectively reach women? I will 
ask Ms. McWilliams and Ms. O'Neill.
    Ms. McWilliams. Well, you have just heard from the panel 
about disarmament and demobilization. The third piece of that 
is reintegration. And I am now specifically involved in trying 
to reintegrate ex-paramilitaries, ex-combatants as partners to 
our peace process.
    But too often, and you have just asked earlier about 
Uganda, what I saw in Gulu in front of me was that when the 
combatants and the child soldiers came back, they were the ones 
who got the reparations and the women got nothing. And they 
were the mothers of the children who had been taken away as 
concubines. And it was shocking for me to watch this.
    And I learned a lesson that these women are survivors and 
not just victims. They are in my own process agents of change. 
But too often they are bypassed. After peace agreements are 
reached, the reintegration focuses entirely on the man and not 
on the women.
    So if the Voice of America and Diplomacy and the United 
States was to continue to focus on transition from conflict to 
peace, it would be to put resources and investment and 
intention on the women in those post-conflict processes and not 
to exclude them and leave them out in the cold.
    Chairman Royce. Thank you. Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman. Ms. O'Neill, in some 
of these societies where women haven't been afforded 
opportunities to serve in high positions of government, how do 
you convince some of the negotiation organizers that they have 
something to offer? Are there alternative qualifications that 
can be stressed and how do we make sure that those voices can 
be heard?
    Ms. O'Neill. Thank you. First thing is that I try not to 
convince them, I let the women themselves convince them. And 
there is never a shortage of women who will speak up for their 
own interests and their own desire to have a decision or a say 
in the decisions that affect their own lives. So the most 
important resource that we all have available is the women 
within countries affected by war who are at the front lines 
already calling for their change, and our objective is to 
amplify their voices.
    You asked about alternative qualifications and that is an 
interesting question because, first of all, many women 
themselves don't recognize the qualifications that they have to 
be part of those conversations. So they are connected to their 
communities. They have a unique ability to bridge divides 
between warring groups and disparate parties. They have an 
ability to reach compromise and consensus. They are constantly 
negotiating and seeking middle ground.
    These are the skills and the talents and the qualifications 
that we need most around negotiating tables, whereas we have a 
system right now that tends to reward those only who took up 
arms, so those who did the very challenging work during a war 
and will do the challenging work of rebuilding it afterwards 
are perceived as not having the right qualifications. So what 
can we do to get them there is, number one, recognize that and 
ask the women in every country in which we are working how we 
can best support them.
    And also to Mr. Sherman's earlier question, what can we do, 
what voice, how can we use this voice? Many people look to what 
the United States says diplomatically for guidance of what is 
important or what are priorities, and when the U.S. is speaking 
about it, when it adopts a national action plan, when it 
codifies it into law, the U.S. is making a clear statement that 
women's inclusion is not an add-on or an afterthought, but that 
we see it as core to actually achieving all of the rest of our 
foreign policy objectives and that it is not something that can 
be culturally discarded or left in the hands of only a few 
people, but it is something that matters to us.
    So in all of our strategic dialogues, Pakistan-U.S. 
strategic dialogue, pre-negotiations with the Taliban in 
Afghanistan, anywhere else we have significant high-level 
negotiations or contact, our most senior diplomats, and not 
just women but men too, should be raising this issue and 
emphasizing to all of our partners the importance of women's 
voice for the exact purpose of their being able to enhance the 
sustainability of any agreement that is reached.
    Mr. DeSantis. Thank you. Ms. McWilliams, can you tell us a 
little about your experience in Northern Ireland, was what you 
were doing effectively implemented after the Good Friday 
Agreement was reached?
    Ms. McWilliams. Well, the women were credited in Northern 
Ireland at the immediate stage post the agreement being signed 
of going to the people in a referendum. And my recollection in 
memory is it was the women who took to the streets. We had got 
these buses and we put our kids on the buses, and we went 
around the country to every village and we knocked on doors and 
we begged people to say yes for the future.
    And when I looked around I wondered, where are all the 
political parties who should be out doing the same job as what 
we are doing? And of course the political parties were back in 
their offices getting ready for the election, and it was women 
who were out on the streets and villages every day for 6 weeks. 
And we did get to yes.
    And so that is always the role that people expect of women 
is to be the people behind the scenes doing the work on the 
streets and in the villages. But I was disappointed after our 
agreement. I am still one of those who think our process 
worked, and thank God it has all these years later, but it was 
the women who went backwards.
    Conflict does an amazing thing to me as a woman. I was an 
ordinary woman who fell into extraordinary times and was asked 
to do extraordinary things that I never thought in my life I 
would be asked to do, and we did it. And after the agreement 
was over, like women everywhere in the world we were told, 
okay, now we have settled the government arrangements, we have 
got all of these, you can go back to what you were doing 
before. And we lost out.
    And that is why in answer to Congressman Sherman's earlier 
question about diplomacy. That is where we needed the United 
States and the champions from the United States to continue to 
say these clauses were also in the agreement about the role of 
women in political participation. Where is the timetable for 
that? You were able to release all of the political prisoners 2 
years after the agreement was signed, how come you couldn't 
increase the role of women in political life? A much easier 
thing to do you would think than releasing people from jail. It 
has still not been implemented.
    So that is where for me the U.S. diplomats came in and we 
had U.S. special envoys. From the Republican side we had Paula 
Dobriansky, and earlier the first lady came and pushed all the 
time, as did the first Ambassador under President Obama, 
Melanne Verveer as the Ambassador for Global Affairs. And these 
roles are incredibly important.
    And the last thing I would say on this is I learned so much 
from my experience that I am now giving this experience to 
others who are in the same process as the women in Colombia and 
the women in Syria and anywhere else, because this also was 
something America did for us. NGOs enabled us to go and speak 
to women in other transitions, and the people who know best 
about those experiences are the women who have been through it 
themselves, like me.
    And so again, the United States was incredibly important 
because we didn't have the resources, we didn't have the 
finances, and that is where that role was important and still 
remains important where we can exchange our lessons from our 
own conflicts with women all over the world.
    Mr. DeSantis. Well, thank you for coming. I really 
appreciated your testimony, and I yield back.
    Chairman Royce. Thank you. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. Thank you to the 
panel for a fascinating set of conversations. It is interesting 
to note, Ms. McWilliams, on your last point that the last three 
Presidents, including the current President, have each chosen a 
woman to be secretary of state, our number one diplomat, who 
have traveled all over the world and at the U.N. in conflict 
situations, in negotiating in diplomatic situations.
    It would be interesting to think back on that at some 
point, did that serve as a change agent? What changed, if 
anything, by having a female face, an American female face in 
front of lots of different cultures that would find that 
difficult to accept in their own cultural milieu?
    Ms. McWilliams. Well, let me tell you how important it was, 
and I have met all three secretaries of state. All three of 
them at different stages, actually, have been in Northern 
Ireland. For such a small country we attracted a great deal of 
attention----
    Mr. Connolly. I have been there myself.
    Ms. McWilliams [continuing]. Good--and for which we are 
very grateful. But it did make a difference. When we went to 
the peace table, Congressman, we were told the only women that 
should be at that table are the women who are going to polish 
the table. We were told to go home and breed for the country. 
We were insulted. We started an insult of the week notice board 
and we hung it outside our office, and we put the person who 
was making the insults' name on the door or on the board, and 
the insult, and eventually it stopped.
    But it definitely stopped when women from the United States 
in these high-ranking positions came into the country and said 
this behavior is not acceptable. They didn't, in diplomacy, 
actually call it that, but they told us that they would 
encourage us to challenge it, they are behind us, they would 
stand in solidarity with us.
    And I now hear from some of those high-ranking women that 
they have saved women's lives in the countries that they have 
been in. When we get a photograph standing next to them, 
suddenly we are elevated into a position that we never were 
before, and that is so important.
    Mr. Connolly. Well, good god, Ms. McWilliams, imagine if we 
actually elected one a President. But that is a different 
thought.
    Dr. Abbas and Ms. O'Neill, I am really struck by your 
testimony because--I wonder if you would address this. I am 
struck with the fact that the cultural barriers in some places 
are so enormous to the point where a figure we would point to, 
a feminist, a self-confident, accomplished professional woman 
here, is actually seen as in very disparaging terms through a 
cultural filter in some other places, and all kinds of Western 
stereotypes imagined about who this person is and as a 
justification for, frankly, putting her or women in that 
cultural milieu in their place.
    And here is my question to you both. How do we overcome 
that without ethnocentrism on our own part? We make value 
judgments about what we consider subjugation, the non-
empowerment, but in a different cultural setting that is the 
proper role. And how do we address this to further the 
empowerment of women and to finally take advantage of the 
productivity of half of humanity?
    Ms. O'Neill. Thank you. First, we have to be extremely 
careful who we allow to define culture. So do we let the 
Taliban in the year 2000 define culture? Do we let the Afghan 
women who have fought so very hard on their own merit for the 
last 16 years to define culture? We have to look inside the 
culture at the various forces within it. And I think one of the 
most dangerous things that we can do is take a surface look at 
culture, believe we understand it, and then end up supporting 
really those who have a vested interest in preserving the 
culture or more realistically preserving power.
    Then what we have to do is ask women within those 
communities and that has to be an authentic conversation, it 
can't be a 45-minute meeting one time only, but to ask them how 
to support them. So in my perspective, culture informs tactics, 
it doesn't inform our fundamental values. So if we believe that 
it is a value, equal treatment is a value, an opportunity that 
women have a right to do that and that women's presence is 
actually an investment on our part, then it is upon us to ask 
how we can do that; how we can work with those women in a way 
that makes the most sense.
    And to keep in mind that the entire, this whole issue is 
not something that originated in the West. Even at the United 
Nations, the topic was first brought up by countries from the 
global south, from Rwanda, from Bosnia, women who had lived in 
the war, who had these vital experiences of being on the front 
lines of stopping the conflict, of building communities, 
putting them back together, et cetera, and then they are the 
very ones who sometimes hear, often from Western policymakers 
that it is against your culture for you to be around this 
table.
    So we have to listen to the women saying allow us to define 
our own culture, our own changing culture, to recognize that 
war changes culture, and to allow us to assume the role that we 
want to play for ourselves. I don't want to diminish the 
importance of doing this carefully and with great respect, but 
to simply say that it is culturally inappropriate or it is 
culturally fine for certain practices to happen in some place 
versus another, when in fact it is against what we 
fundamentally stand for and value and that we know is to be 
efficient, isn't an effective argument.
    Mr. Abbas. Congressman, I would mention three things that 
first come to my mind, and the examples are in one case 
beginning from Pakistan. For instance, there is in many--when I 
say Pakistan, I mean it to be South Asian states and many 
Middle Eastern states. It is the common feature of their 
cultural notions that women are not seen in roles of national 
security or as police officers or as even intelligence 
officers, or who are coming out defending their nations, 
defending their societies.
    And that role, two or three examples tell us, can change 
very quickly. Indonesia: In Indonesia what they did very 
smartly was they started appointing women as judges of what 
they call Islamic courts, and that had a huge impact. More 
women started coming out, the scene started to change. Turkey 
did the same thing in their policing sector.
    In the case of Pakistan, before Benazir Bhutto, I think 
there were hardly any women who you could mention who were 
playing any important role, but now whether it was an 
Ambassador from Pakistan, Sherry Rahman, who is Ambassador to 
U.S., Maleeha Lodhi, who is currently Pakistani Ambassador to 
the U.N., and so many experts from the human rights side. On 
security, security expertise has been developed because that 
one agent of change inspired and motivated so many others. And 
so anything we can do to support that. For instance, my 
question is one, when the counterterrorism money was given to 
Pakistan and other countries that was somehow always tilted 
toward the very, very military side of things. We never talked 
that law enforcement; but the criminal justice system can 
actually help defeat extremism or militancy. Then when we 
started thinking about it and started giving money to the law 
enforcement forces, women's issues or their representation was 
never the priority it is now becoming, thanks to all of you.
    But one more point very briefly I want to touch upon and 
that is, I say it as a proud Muslim, but in Middle East and 
South Asia, many Muslim countries, something has gone terribly 
wrong with the religious education spectrum. And even though in 
Muslim history I can mention so many women, there is one, just 
one I will mention, because I think and I heard from Benazir 
Bhutto that she was inspired by that Muslim figure. Although if 
I today do a survey and ask in the Middle East--with all the 
due respect, I have great friends there, I go there all the 
time--if I ask them about any historical Muslim figure who had 
done or played a prominent role, probably they will come up 
with very few names.
    One name, Zaynab. Zaynab was a granddaughter of the 
prophet, but she had taken a stand against Yazid. Yazid was a 
caliph, a Muslim caliph of 7th century. She challenged him 
against his oppression, singlehandedly her whole family, this 
is related to Karbala, where Husayn was killed and buried. That 
is why all the people go to those shrines.
    But the message of Karbala Husayn or that biggest tragedy 
was not propagated through men, it was done through a woman 
named Zaynab. And if I ask today most Muslims about it, the 
tragedy is, yes, the Sufis would know, the Shias would know, 
most Muslims would not be able to tell me this prime example of 
leadership. So something has gone wrong in those cultural 
religious issues as well.
    Mr. Connolly. I must thank you, Mr. Chairman.
    Chairman Royce. Thank you. The gentleman's time has 
expired. Without objection, would please to recognize 
Congresswoman Ann Wagner.
    Ms. Wagner. Thank you, Mr. Chairman. I thank the committee, 
also, for their focus on women fighting for peace, including 
the ranking member. It is good to be with you, Mr. Sherman, 
also.
    I thank the chairman for his kind invitation. I had the 
great privilege of being a woman diplomat as a former United 
States Ambassador. I am committee-crashing from the Foreign 
Services Committee at the moment, but I have done that on 
several occasions with the Committee on Foreign Affairs. And I 
want to thank all of you for being here today to discuss what 
is proving to be a very difficult process, I believe, in Syria, 
and I would like to delve into that a little bit more.
    In preparing for today's hearing, I was struck by the 
research and how it demonstrates that the inclusion of these 
noncombatant civil society actors in peace negotiations--
specifically today we are speaking about women--how it 
decreases the odds of a return to conflict by I believe the 
number that was quoted was 64 percent.
    I have to say as a former woman diplomat, it is an 
imperative that we be at the table on, I believe, all issues of 
the foreign policy peace process. It is imperative in terms of 
the success of the negotiations, but perhaps even more 
important and duly noted here today as a pre-talk process that 
we play, but most importantly selling the policy and the peace 
back at home. That I think is a very important thing for us to 
do.
    And Ms. O'Neill, in your testimony you talked about some of 
the indicators, some of the reasons why women are so successful 
in these kinds of negotiations. And I would submit here for the 
record that we are successful because we do it because we don't 
care who gets the credit at the end of the day. We are doers 
who just want to get the job done. And one of the most specific 
takeaways is that the extremists are doing it already. So we 
must catch up.
    And then Dr. Abbas, I have to say that I have had the 
privilege and continue to come back and work in leadership 
roles as a woman in business, as a party chair in politics for 
a number of years, as a former United States Ambassador, and 
now as a Member of Congress because I too see, to quote your 
words, ``the hope in the eyes of other women,'' in America's 
daughters. But perhaps more importantly, I see the increased 
level of respect and understanding in the eyes of America's 
sons. I have two sons myself and a daughter, and they will talk 
about my being a role model to my daughter, when, frankly, I 
think I am a more important role model to my two sons.
    Speaking as such, I am also, speaking of one of those sons, 
a proud mother of a United States Army captain who has served 
in combat in the Middle East, and I am very interested and, 
frankly, very invested that a peaceful solution to the Syrian 
civil war be found, not only for what this means for the Syrian 
people and their struggle, frankly their genocide in many ways, 
but also for what it means for the American people too.
    So Ms. McWilliams, can you talk a little bit about your 
efforts to create the linkage between the formal peace process 
and the women civil society advocates on the ground in Syria?
    Ms. McWilliams. Thank you very much for that question. The 
interesting process that is going on in Geneva at the moment 
not only has a civic society parallel forum, it also has a 
women's advisory board parallel forum. And then inside the 
opposition coalition there are three woman delegates amongst 
the 15, and amongst the regime there are three woman delegates. 
And the opposition coalition formed an advisory committee of 15 
women.
    So for me it is definitely setting a precedent of the 
acknowledgment that women have in that process from civic 
society, but also women being able to be participants inside 
the United Nations process that is currently being run at some 
of the talks.
    And one of the things that I concentrated on was some of 
the issues that you raised earlier around culture; that the 
women need to prepare themselves for a new constitution and 
they should not allow forced marriage to return at the age of 
13. And they are stateless if their husbands die, and many of 
them are now widows and they can't pass on statehood to their 
children because it is not allowed as women.
    And if those women were not at the table, if they weren't 
inside the process, those issues would, I suspect, not be 
prioritized in the agenda and perhaps forgotten about once the 
agreement was signed. Statelessness for you and me would be 
incredible and to not be able to pass that on to our children, 
and given that so many men have lost their lives this is a very 
real issue. And there are many other issues like that which we 
already touched on.
    So these are political issues, there is no doubt in my 
mind. We used to say in our process that the women were 
expected to put the small p on the table, but this is the big 
p, and these are big p political issues that need to sit 
alongside what always gets concentrated on if only the ex-
combatants are at the table, which is release of prisoners, 
which is security sector reform of the army and the police, 
criminal justice reforms. All of those are exceptionally 
important, but for sustainability of peace, which is what you 
have just----
    Ms. Wagner. Right.
    Ms. McWilliams [continuing]. Referred to, that is where the 
women become crucial.
    Ms. Wagner. And that, Ms. McWilliams, is what you talked 
about in terms of the reintegration effort that must be a part 
of keeping the peace; and that women, if they are at the table, 
must be a part of that reintegration process. And I do hope 
that to the extent that the West is involved and certainly the 
U.S. that we can serve in a greater capacity in elevating that 
in terms of the sustainability.
    Chairman Royce. The gentlewoman's time has expired. The 
chair will now recognize Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman, and thank you for this 
hearing, and I certainly want to thank the witnesses.
    Here in the United States this is Women's History Month, 
and when we look at great women throughout our history whether 
it is Eleanor Roosevelt, Rosa Parks, or Harriet Beecher Stowe 
who President Lincoln credits with very much ending slavery in 
the United States, we still have a long ways to go in our own 
country to elevate the role of women. If we think about it, 
women are over 50 percent of the population in America, over 60 
percent of the undergraduates, over 60 percent of the masters 
degrees, yet less than 15 percent of the CEOs in the United 
States are women, less than 5 percent of CEOs at Fortune 500 
companies are women. Here in our own politics in Congress, less 
than 20 percent of the congressional membership are women and 
only 10 percent of the governors around the country are women. 
So we have a long ways to go.
    Without getting political, can I ask the witnesses what 
their opinion would be of the public perception if the United 
States of America was to elect the first female President of 
the United States? How would the world perceive this?
    Mr. Abbas. I think that would be fabulous, number one. I 
think that will have a huge impact. In terms of and 
irrespective of the politics, I mean, the mere fact that a 
woman--and this is often asked. Bangladesh has the leader of 
the House who is the President, the Prime Minister, the leader 
of opposition who becomes Prime Minister, both of them women. 
India, Indira Gandhi, Pakistan of course, Kosovo, there are so 
many other countries, Israel. There are many other countries 
who have produced amazing women as heads of state. Why not the 
United States? That is, we often hear discussion.
    I think, yes, it is recognized that women's empowerment--
that the way it is happening in United States--is unparalleled 
also. I mean that is recognized. I think what was mentioned was 
so true. It is an issue of respect that women get as equals, 
and that there is no doubt that the U.S. is recognized for 
that. But political positions, I think they also have an 
impact. The message will be very strong in itself if that 
happens.
    Mr. Bera. And just to play on that, within the Muslim world 
you touched on, Dr. Abbas, the fact that women are not often 
given a seat at the table, et cetera, if just the symbolic 
nature of the leader of the free world being a female in 
negotiations and so forth, do you think that elevates the role 
of women and empowers women?
    Mr. Abbas. I think most certainly. I would say when 
Secretary Clinton at the time she had visited Pakistan, she was 
the first outside leader who walked into Pakistan into a shrine 
which was of a very famous saint. Those pictures, if you Google 
U.S.-Pakistan relations, that picture still come up, very right 
up front.
    So this impacts. I think most of the countries, I am 
thinking more of the more recent states, they will have to 
cease to think about it. Probably they will have to appoint a 
few senior people, so this will have a cascading impact, I 
think.
    Mr. Bera. Right. Ms. O'Neill.
    Ms. O'Neill. So certainly I think the number one 
qualification has to be someone being qualified. They have to 
be able to fulfill their role. Fortunately there are 3.5 
billion women in the world that I am quite certain that at 
least one would be qualified to assume the leadership of any 
major country or organization.
    And I do think the symbolism matters tremendously, 
symbolism that is not token symbolism, but symbolism that is a 
signal of what the country values. And people outside of this 
country are extremely smart. They see, they understand when 
something is token or when something is sort of a patch to hide 
something else versus when something is a signal that there is 
authentic change in a country and that there is a pipeline of 
women coming up at all levels and all ranks and in all fields 
who are not just one top leadership, woman in top leadership, 
but a pipeline of women who are going to be positioned to serve 
in a whole range of areas. So it does send a powerful signal, 
yes, and it is noted.
    Mr. Bera. Ms. McWilliams.
    Ms. McWilliams. Most certainly, because I know the former 
first lady and secretary of state personally, and believe it or 
not we again are such a small country that she has come back 
time and time and time again and to make sure that our peace 
process kept going. And the whole country, whether or not they 
agree ideologically with the politics of the Democrats, 
absolutely agreed that this was a tremendous thing that Hillary 
Clinton did. And should she become President, again I think it 
would speak volumes.
    But again I agree with the panel that it is not just the 
face and the tokenism, it has to be the politics. The person 
has to walk the talk alongside women who have struggled. 
Otherwise they don't speak the same language and they are 
simply there as an opportunistic position, and I don't believe 
that in her stature that she has done that. She has walked the 
talk and she doesn't just make it out that it is for political 
reasons or for votes, although that may also be part of it. And 
I think it would be a tremendous symbol to the world to have 
someone like her become President.
    Mr. Bera. Great.
    Chairman Royce. The gentleman's time has expired. Without 
objection, I recognize Congresswoman McSally.
    Ms. McSally. Thank you, Mr. Chairman. Thanks for holding 
this hearing today on this really important issue, and thanks 
to the panelists for your expertise.
    For my background, I was in the military 26 years. I was a 
fighter pilot in the first group of women to do that and first 
to fly in command in combat. I have long advocated in the U.S. 
that women need to be fully included into our security 
structure. I have long advocated that we need to be picking the 
best men for the job, even if it is a woman, across the board.
    My last military assignment was at Africa Command, and in 
addition to my responsibilities in operations I was asked to 
help Botswana integrate women into their military for the first 
time, and did some other engagements in Swaziland, Lesotho, and 
in fact my last week in active duty was in Sierra Leone 
addressing some of these issues. I had never heard about a U.N. 
Security Council Resolution 1325 in my military career.
    I was a professor after that at the Marshall Center, and as 
we started addressing some of these issues with our colleagues 
and our partners in other countries is when I started to 
understand like, oh, we have got this thing out there that I 
have been living and advocating for, but I didn't realize that 
the U.S. really was paying little attention to it.
    I was excited to see that we were finally coming up with 
our national action plan, and quite frankly, when we finally 
rolled it out I was shocked to discover that our focus was 
arrogantly on how we are helping other countries without 
looking internally and realizing at that time we didn't even 
allow women in all positions in our military, for crying out 
loud. That we were talking about how we are going to help other 
people, while we still had a long way to go both in our 
military, our security forces, in Congress--I mean, give me a 
break. We need to set a better example across the board.
    So I ended up lecturing on this. I went to OSCE meetings. 
One of the frustrations is that it seems like only women were 
interested. And unless we can get men to realize that this is 
not a women's issue, this is a security issue, and women must 
be at the table, which you all know well, then we are speaking 
in an echo chamber. So this hearing helps certainly to raise 
awareness.
    The second issue is you all know there is good examples 
that we have seen where lasting peace and security have been a 
result of women's full engagement, and we have bad examples, 
like Angola comes to mind, where it wasn't. In the military we 
often talk about lessons learned, I say they are lessons 
identified. They are not lessons learned until they are 
actually learned.
    And so I really have two questions. One is, what can we be 
doing more as the United States to be not just providing lip 
service to this issue? I mean, again we have our own internal 
issues, but as we are dealing like the current negotiations 
right now, the ones that come to mind are Syria and Afghanistan 
you have talked about, what more should we doing as the United 
States to demand that women must be at the table?
    I am leading a codel of all women to Afghanistan in May, 
second year in a row. What else should we be doing in demanding 
that women be at the table because it is a security and lasting 
peace? And number two, where have we actually learned the 
lessons? Where have they been lessons learned versus lessons 
identified in our current contemporary negotiations? I would 
just go down the panel, starting with Ms. O'Neill.
    Ms. O'Neill. What more you can do. First, within Congress, 
give the National Action Plan legislative authority, so pass 
the bipartisan Women, Peace, and Security Act to ensure that 
that National Action Plan cannot be set aside by any future 
political leader.
    Secondly, you talk very specifically about how some of this 
guidance or these directives aren't actually part of the DNA of 
our security institutions yet. That is often very much a 
reflection that the value of women's contributions is not 
understood as an issue of operational effectiveness, as you 
said of national security.
    So speaking in those terms, raising those issues, raising 
that vocabulary and having, as you also said, senior male 
military leaders speak about the value and the importance of 
having women at all levels and at all ranks in the U.S. armed 
services is essential. It cannot be an issue of only women 
speaking to other women about doing this for women. It has to 
be senior men and women talking about the value to the mission 
of having women fully integrated.
    What can you do about negotiations? Be vocal. There is 
absolutely no reason in the United States, that any negotiation 
in which it participates, cannot say we will not have a 
meeting, we will not sit down unless there are 50 percent 
females present.
    There will be challenges along the way, but negotiations 
are a very sticky, very difficult thing. And the U.S. perhaps 
more than any other body actually has the moral authority or 
sort of the actual authority to do so. So making it a clear 
priority and raising it at every single interaction that we 
have.
    I will let Monica speak to some of the lessons learned. I 
think she will probably address some of the Syria case. But 
there are instances slowly, slowly where we are applying some 
of these lessons, but we are also, I think, identifying some 
lessons from conflicts in Afghanistan and also where we are 
operating in exceptionally conservative societies and then 
applying those lessons, unfortunately, in other contacts where 
they may not even deserve to be applied, so we have to be 
careful in both ways.
    Ms. McSally. Great. And unfortunately my time has expired, 
so I do, I look forward to following up with all of you on some 
of the other questions on how we can be more helpful as 
specifically related to my trip to Afghanistan as well, so 
thank you. Thank you, Mr. Chairman, yield back.
    Chairman Royce. Thank you, Congresswoman McSally. I want to 
thank our excellent panel today. I thank you for your 
significant contributions on this important subject, and also I 
just wanted to convey that the committee looks forward to 
working with you on a path forward to address many of these 
issues. And so at this point the committee stands adjourned.
    [Whereupon, at 12:17 p.m., the committee was adjourned.]

                                    
                                    

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
